<html>
<title> - IS THE OFFICE OF INTELLIGENCE AND ANALYSIS ADEQUATELY CONNECTED TO THE BROADER HOMELAND COMMUNITIES?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





IS THE OFFICE OF INTELLIGENCE AND ANALYSIS ADEQUATELY CONNECTED TO THE 
                     BROADER HOMELAND COMMUNITIES?

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE, 
                       INFORMATION SHARING, AND 
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2010

                               __________

                           Serial No. 111-83

                               __________

       Printed for the use of the Committee on Homeland Security




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-033 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001





                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair
Christopher P. Carney, Pennsylvania  Michael T. McCaul, Texas
Yvette D. Clarke, New York           Charles W. Dent, Pennsylvania
Laura Richardson, California         Paul C. Broun, Georgia
Ann Kirkpatrick, Arizona             Tom Graves, Georgia
Al Green, Texas                      Peter T. King, New York (Ex 
James A. Himes, Connecticut              Officio)
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                     Michael Blinde, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
              Meghann Peterlin, Minority Subcommittee Lead












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................    12
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................    13

                               Witnesses

Ms. Caryn A. Wagner, Under Secretary for Intelligence and 
  Analysis, Office of Intelligence and Analysis, Department of 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7

                                Appendix

Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Intelligence and Analysis.............    21
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Infrastructure Protection.............    23
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Operations Coordination...............    24
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Domestic Nuclear Detection Office.....    24
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Counternarcotics Enforcement..........    24
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Cyber Security and Communications.....    24
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Health Affairs........................    25
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Policy................................    25
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Office of Risk Management and Analysis..........    25
Questions From Chairwoman Jane Harman and Ranking Member Michael 
  McCaul for the Science and Technology Directorate..............    26

 
IS THE OFFICE OF INTELLIGENCE AND ANALYSIS ADEQUATELY CONNECTED TO THE 
                     BROADER HOMELAND COMMUNITIES?

                              ----------                              


                     Wednesday, September 29, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 4:10 p.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Harman, McCaul, and Dent.
    Ms. Harman. The Subcommittee on Homeland Security will come 
to order. The subcommittee is meeting today to receive 
testimony on the question: Is the Office of Intelligence and 
Analysis--called I&A--Adequately Connected to the Broader 
Homeland Communities?
    Let me apologize to our witness for keeping her so long. 
The House is probably in its last day before the recess until 
the election, and everything possible is coming up on the House 
floor, including in a few minutes the intelligence 
authorization bill, something that I know our witness has great 
affection for because a few years back she worked on the staff 
of the House Select Committee on Intelligence.
    We are starting now, but our Ranking Member is expected any 
minute, and I am vamping just slightly so when I finish my 
opening statement he will be here and can give his, and then we 
will move promptly into Secretary Wagner's testimony and 
questions.
    Welcome, Under Secretary Wagner. This is a busy time of 
year for all of us, and the subcommittee greatly appreciates 
your appearance today to discuss how you are improving I&A's 
capabilities.
    Today's hearing will focus on I&A's relationships with 
other parts of DHS, the other headquarters elements that need 
intelligence to carry out their own missions.
    We want to know how you are communicating and sharing 
information with the Science and Technology Directorate, the 
National Operations Center, and the National Programs and 
Protection Directorate, among others. Are your relationships 
with these entities adequate and are you performing as a leader 
in a constellation of parts of DHS that need intelligence to 
carry out their missions? Is intelligence adequately shared so 
that I&A accurately analyzes and produces timely and useful 
threat information about terror targets and tactics to its 
customers?
    As you know, your predecessor, Charlie Allen, prided 
himself on his connections throughout the Government. He was a 
legend, having spent a half century virtually as one of the 
leaders of the Central Intelligence Agency, and no one doubted 
his ability to work horizontally across the Government.
    The issues this subcommittee had with your predecessor 
related not to his ability to work horizontally, but to his 
ability to work vertically, something that is much improved 
during your tenure under the leadership of your deputy, Bart 
Johnson.
    So today it appears to us, or to me anyway, that I&A is 
doing much better with vertical integration outside the 
Department, from I&A down to State and local law enforcement 
and back. It is also doing much better with vertical 
integration within the Department, from I&A to the intelligence 
elements inside DHS and back to I&A. But what we are concerned 
about is whether I&A is doing enough with horizontal 
integration across the Department, from I&A to the other DHS 
headquarters offices and back. I hope I am being clear.
    We have taken a look at the most recent version of the DHS 
Intelligence Enterprise Strategic Plan, which I might note is 
dated 2008 and still has Charlie Allen's picture at the front. 
It says that you as the DHS Chief Intelligence Officer are 
charged with leading and managing the Enterprise. This includes 
making sure that information is shared throughout the 
Department. What is your honest assessment of progress to date?
    I want to assure you, Madam Under Secretary, that I am not 
proposing to move boxes around. I think I have learned a lot 
about doing that in recent years, and I do not want to just add 
names of organizations to the list that composes the 
Enterprise. What I am interested in is making sure that you 
have what you need to manage the critical relationships of I&A, 
both vertical and horizontal, to manage them simultaneously 
without trading one off against the other.
    Today we hope to hear the good news stories of cooperation 
and collaboration, but we also want to hear about the areas 
that need some work. We want to work as your partner, an offer 
I made frequently to Charlie Allen, knowing that the better you 
do your job, the safer our communities will be.
    Welcome, and again thank you for your service.
    The Ranking Minority Member is now here. I now yield 5 
minutes to the Ranking Member for an opening statement.
    [The statement of Chair Harman follows:]
                Prepared Statement of Chair Jane Harman
                           September 29, 2010
    Welcome, Under Secretary Wagner. This is a busy time of year for 
all of us, and the subcommittee appreciates your appearance today to 
discuss how you are improving I&A's capabilities.
    Today's hearing will focus on I&A's relationships with other parts 
of DHS--the other headquarters elements that need intelligence to carry 
out their own missions.
    We want to know how you are communicating and sharing information 
with the Science & Technology Directorate, the National Operations 
Center and the National Programs & Protection Directorate--among 
others. Are your relationships with these entities adequate?
    Is intelligence adequately shared so that I&A accurately analyzes 
and produces timely and useful threat information about terror targets 
and tactics to its customers?
    As you know, your predecessor, Charlie Allen, prided himself on his 
connections throughout the Government. He was a legend--and no one 
doubted his ability to work horizontally across the Federal Government.
    The issues this subcommittee had with your predecessor related to 
vertical information sharing--something much improved during your 
tenure, under the leadership of your deputy, Bart Johnson.
    Today, it appears that I&A is doing much better with vertical 
integration outside the Department--from I&A down to State and local 
law enforcement and back.
    I&A is also doing much better with vertical integration within the 
Department--from I&A to the intelligence elements inside DHS and back 
to I&A.
    But this subcommittee is concerned that I&A is not doing such a 
great job with horizontal integration across the Department--from I&A 
to the other DHS headquarters offices and back to I&A.
    We've taken a look at the most recent version of the DHS 
Intelligence Enterprise Strategic Plan (which I might note is from 2008 
and still has Charlie Allen's picture at the front).
    It says that you, as the DHS Chief Intelligence Officer, are 
charged with leading and managing this Enterprise. This includes making 
sure that information is shared throughout the Department. What is your 
honest assessment of progress to date?
    I want to assure you, Madam Under Secretary, that I am not 
interested in moving boxes around in an organizational chart.
    And I do not want to just add names of organizations to the list 
that composes the Enterprise.
    What I am interested in is making sure that you have what you need 
to manage the critical relationships of I&A--both vertical and 
horizontal--and manage them simultaneously, without trading one for the 
other.
    Today we hope to hear the good news stories of cooperation and 
collaboration.
    But we also want to hear about the areas that need some work.
    We want to work as your partner--knowing that the better you do 
your job, the safer our communities will be.
    Welcome, and thank you for your service.

    Mr. McCaul. Thank you, Madam Chair. I appreciate your 
patience in waiting for me. I got tied up on an important 
matter, but nothing is more important to me than this hearing, 
and it has been a joy to work with you. This may be our last 
hearing, and I just want to say one thing about the Chair, you 
always know where you stand, and I appreciate that.
    I want to thank Madam Chair for holding this hearing. 
Welcome, Madam Secretary.
    First of all, I want to let you know that the Houston 
Fusion Center, I had a visit and they wanted connectivity to 
classified information, SCIF, and you were very responsive in 
fixing that issue, and I want to thank you for that.
    Also, I want to let you know that we have heard that I&A 
has significantly improved its interactions both within the 
Department and with State and local fusion centers and I 
appreciate that. We are all well aware of the problems you 
inherited at I&A, and it does appear at least to some extent 
that things are improving.
    I do, however, want to raise a few specific concerns with 
you. I know you recently had to change your plans for the Joint 
Fusion Center Program Management Office, and I am pleased to 
learn that you are continuing to move forward with that, that 
goal to coordinate DHS interactions with the fusion centers. In 
my judgment, this level of coordination is extremely important.
    I am concerned, however, that DHS is not paying the same 
attention to coordinating its interaction with the States as a 
whole. I have heard reports that different parts of DHS are 
going to different State offices with threat information, 
sometimes cutting the fusion centers out of the process 
altogether. In my judgment, the Department should be the 
shining example for the rest of the Federal Government on 
coordination and information sharing, and I want to be sure 
that we are not ignoring stovepipes that may be popping up 
within DHS, particularly when it comes to interactions with 
State and locals.
    Additionally, when taking a look at the DHS Intelligence 
Enterprise organizational chart, many DHS elements seem to be 
missing, in my judgment. As one example, the Office of Cyber 
Security does not appear as part of the Intelligence 
Enterprise.
    I hope through this hearing we can explore how the 
Department defines homeland security intelligence and how you 
distinguish between partners in the DHS Intelligence Enterprise 
and elements who are not, and how you have prioritized I&A's 
customers within the Department. So I look forward to hearing 
your testimony.
    Madam Chair, I am aware there were some scheduling 
conflicts with today's hearing, so we were unable to hear from 
the other DHS headquarter elements that we will discuss here 
today. While I know Under Secretary Wagner will do a capable 
job, I want to be sure that we note that we will only be 
hearing from one side, Madam Chair, and I hope that we will be 
able to hear from the other parts of the Department on this 
topic in the future so that we can really delve into the 
problem areas and find solutions.
    Finally, I have said it before, but I want to reiterate 
once again that I hope that you will view this as an 
opportunity for us to discuss the issues, have a constructive 
conversation, and work together to solve the internal problems 
at the Department. At the end of the day, I know we all want to 
see it succeed in keeping the American people safe. In my 
judgment, DHS needs to get its own house in order before it can 
hopefully fulfill that mission.
    With that, I yield back.
    Ms. Harman. I thank the Ranking Member. We did have several 
conversations about who else might testify today and decided 
for a variety of reasons, including the lateness of the hour, 
that we would have Under Secretary Wagner but that we will 
communicate with the other Enterprise elements. I am notifying 
you, Ms. Wagner, that we plan to send questions in writing as 
part of our hearing record to those elements so that we have a 
full record of their views as well as your views about this 
critical subject. I assume that is all right. Fine.
    You are now recognized to summarize your testimony in 
approximately 5 minutes.

STATEMENT OF CARYN A. WAGNER, UNDER SECRETARY FOR INTELLIGENCE 
 AND ANALYSIS, OFFICE OF INTELLIGENCE AND ANALYSIS, DEPARTMENT 
                      OF HOMELAND SECURITY

    Ms. Wagner. Thank you very much, Madam Chair. Before I 
start, I wanted to congratulate you on the passage of your 
legislation, Reducing Overclassification Act of 2009. We 
enjoyed working with you on that legislation, and we believe it 
is going to help us in our efforts to prevent 
overclassification and ensure that we can share critical 
information with State and locals.
    Ms. Harman. If I might interrupt, we are all pleased about 
that. It wasn't just my legislation, it was unanimously 
reported by our subcommittee, and it only took 3 years to get 
it to pass the Congress. Much of that time was spent in the 
United States Senate, you understand. But at any rate, we are 
thrilled about this, and are hoping that the President will 
sign the bill into law at the nearest possible time.
    Ms. Wagner. I am sure he will.
    Madam Chair, Ranking Member McCaul, Congressman Dent, and 
other distinguished Members who may appear later, thank you for 
the invitation to appear before you to discuss how the Office 
of Intelligence and Analysis supports the activities of the 
Department's headquarters elements and thus the Department's 
larger set of customers and partners.
    We have spent some time trying to come up with a vision 
statement for I&A, which is not as easy as it might seem given 
the broad and diverse set of missions that the office has. What 
we settled on was the phrase: ``Equipping the Homeland Security 
Enterprise with the information it needs to keep the Nation 
safe, secure, and resilient.''
    The Homeland Security Enterprise, as I have testified 
before this subcommittee before, is a set of concentric 
circles. It includes the Department's headquarters elements, 
its many and varied components, its State, local, Tribal, and 
territorial partners, and at its widest extent, the American 
public, who is a key stakeholder in the Homeland Security 
Enterprise.
    I have appeared before you, as you mentioned, to discuss 
our role in supporting the Department's components, and also 
the National network of fusion centers. Today, you have asked 
me to focus on our support and relationships to the 
headquarters elements. I am happy to do that. I think I have 
some good news to share, although clearly there are areas where 
we can improve, and I will highlight a few of those.
    I&A is by its nature a service element, and we provide our 
specific service, tailored intelligence and information, to 
both the operating elements of the Department, like Customs and 
Border Patrol, but also to other service elements like 
ourselves, such as the Office of Policy and the Office of 
Health Affairs. While the types of interactions and products 
and services that we provide to the different department 
elements vary, there are several common themes that underpin 
our interactions with all of these elements.
    First, we provide the entire Department, and by inference 
its many customers, with a common understanding of the threat. 
The Department is largely in the business of managing risk, 
risks from terrorism, natural disasters, chemical and 
biological agents, cyber attacks, and identifying and analyzing 
the threat is a key part of the risk management model. So risk 
is a function of threat, vulnerability, and consequences. I&A 
owns the threat piece, and we support our partners in assessing 
vulnerability and consequences to assess the overall risk to 
the homeland.
    Second, we are responsible for facilitating the 
Department's interaction with our State and local customers via 
the fusion centers. This goes to Ranking Member McCaul's 
comments. We are trying to improve this, and I think we are 
making progress, although we do still have incidences of people 
kind of getting a little bit off the reservation. I think that 
is happening less and less as we improve the representation in 
our State and Local Program Office and we educate both the 
fusion centers, the State governments, and our own people on 
the mission of the State and Local Program Office.
    We also use interdepartmental coordination forums, and as I 
mentioned, liaison personnel, and our most recent detailee to 
the State and Local Program Office comes from the Office of 
Health Affairs to better integrate health information into our 
interactions with State and local governments.
    Third, we leverage the intelligence community for the most 
complete and current information to support our many customers 
and partners. An example of this is the role that we play in 
communicating to the Domestic Nuclear Detection Office, the 
analytic judgments and the collection capabilities of the 
National intelligence community so that they can factor those 
in as they develop the global nuclear detection architecture.
    So our closest continuing collaborations within the 
Department are probably with the National Programs and 
Protection Division, the Office of Operations Coordination and 
Planning, and the Office of the CIO.
    We have an extremely close partnership with the Office of 
Infrastructure Protection, which resides within the National 
Programs and Protection Division. We work together in an 
integrated analytic unit to assess the threat and vulnerability 
for critical infrastructure and key resources. We are jointly 
conducting a Risk 101 training course for State and local 
fusion center infrastructure analysts, and we recently held a 
joint meeting for fusion center analysts and IP's deployed 
protective security advisers, another element that for a while 
was independently dealing with fusion centers and State and 
local governments, and we have now tried to make that more 
integrated and coherent, and we have gotten great cooperation.
    We also work closely with IP's Office of Bomb Prevention to 
provide coordinated products to the field on terrorist use of 
bombs, improvised explosive devices, and other weapons.
    The Department's Office of Cyber Security and 
Communications also resides within the National Programs and 
Protection Division. I&A analysts are physically embedded in 
the National Cybersecurity and Communications Center, the NCCC, 
and in the U.S. Cyber Emergency Response Team, US-CERT. These 
cyber analysts deliver products and services to the sector 
coordinating councils, to State and local authorities, and to 
the private sector, working in close collaboration with our 
NPPD counterparts. We are working here also to increase the 
interaction with the fusion centers and the products that we 
provide.
    In the operations arena, I&A as an Intel Watch and Warning 
Section embedded in the National Operations Center to integrate 
intelligence into the common operation picture, receive and 
disseminate intelligence warning information, and provide 
outreach to the intelligence community to keep the NOC and the 
DHS leadership advised of breaking events. While the 
relationship with the NOC is excellent, the physical 
configuration that we have on Nebraska Avenue is not optimal 
for integrating the intel and operations pieces, so we are 
actively engaged with our ops colleagues to follow best 
practices in how we integrate intelligence operating at a 
different classification level with our operations and watch 
elements when we move to St. Elizabeth's, and that is going 
very well.
    In addition to being Under Secretary for Intelligence and 
Analysis and the Chief Intelligence Officer for the Department, 
I am also responsible for information sharing. I chair the 
Information Sharing Governance Board with representatives from 
all of the key components and headquarters elements. In order 
to help the Department move forward in having an integrated 
information architecture, I formed a strategic partnership with 
the CIO, Richard Spires, to use the Information Sharing 
Governance Board to accomplish IT portfolio management 
responsibilities as well as its broader policy and procedure 
mandate. He and I also co-chair the National Security Systems 
Program, a vehicle for joint management of the Department's 
classified systems. So the relationship with the CIO is strong 
and growing.
    These are just a few of the relationships that we have with 
elements at the headquarters. I am happy to answer questions 
about these or any of the others that I haven't mentioned. In 
the 7 months I have been on the job, I have worked hard to 
reach out and make it clear that I&A exists to serve the 
Department and its missions. There is still room for 
improvement, especially as we bring new people on board and try 
to introduce them into the ops and planning cycles of all of 
the various headquarters elements, but I think we are making 
steady progress, and I hope that we are increasingly being 
viewed as a constructive member of the DHS team. I personally 
will continue to focus on improving those relationships.
    Thank you for your time.
    [The statement of Ms. Wagner follows:]
                 Prepared Statement of Caryn A. Wagner
                           September 29, 2010
                              introduction
    Chair Harman, Ranking Member McCaul, and distinguished Members of 
the subcommittee, thank you for the opportunity to appear before you 
today to discuss how the Department of Homeland Security's (DHS) Office 
of Intelligence and Analysis (I&A) interfaces, supports, and 
coordinates with headquarters elements of the Department--the offices 
and directorates at the headquarters level that report directly to the 
Secretary, outside of our seven operating components.
    Before I address the main topic of this hearing, I must echo the 
Secretary's testimony from September 22, 2010: The terrorist threat to 
our country is changing in ways that increasingly challenge law 
enforcement and the intelligence community. The Department is moving at 
all levels to address this evolving threat; preventing terrorist 
attacks in today's dynamic threat environment means working in a 
unified way across all levels of Government. DHS' intelligence mission, 
which I am honored to lead, is to sustain a unified and synchronized 
intelligence enterprise that enables informed decision-making at DHS 
and in the entire homeland security enterprise. The mission of I&A is 
to strengthen the Department's and our partners' ability to perform 
their homeland security functions by accessing, integrating, analyzing, 
and sharing timely and relevant intelligence and information, while 
protecting privacy and civil liberties.
        the office of intelligence and analysis strategic vision
    I&A is charged with leading the Department's efforts to provide 
intelligence and information in a useful form to Departmental decision-
makers, headquarters, and operational components, State, local, Tribal, 
and private sector partners, and the National intelligence community. 
Our job is to serve as the two-way conduit for information that 
supports protecting the homeland. I&A's programs, projects, and 
activities align with the core DHS missions designated in the 
Quadrennial Homeland Security Review (QHSR). To that end, I&A plays a 
critical role to DHS' success in all of its core mission areas: 
Preventing terrorism and enhancing security, securing and managing our 
borders, enforcing and administering our immigration laws, safeguarding 
and securing cyberspace, ensuring resilience to disasters, and 
strengthening and maturing the Department.
    In my last appearance before this subcommittee in May, I addressed 
the evolution of the DHS Intelligence Enterprise and how it interacts 
with Departmental operational components. Today, I appear before you to 
discuss the ways in which I&A supports the headquarters elements of the 
Department.
           intelligence support to dhs headquarters elements
    A key reason for I&A's existence is to support the intelligence 
needs of the Department as a whole. To this end, I firmly believe that 
I&A must provide the entire Department with a common understanding of 
the threat. In ascribing to this model, I am dedicated to providing 
timely, relevant, and vigorous intelligence support to DHS headquarters 
elements, as well as to the Department's operational components. This, 
of course, is in addition to our focus on supporting the intelligence 
and information sharing needs of our non-Federal partners, the National 
intelligence community, and the Nation's private sector.
    I&A interacts with headquarters elements within DHS in accordance 
with the authorities given to me as the Department's Chief Intelligence 
Officer. This interaction includes I&A production of analytic products 
tailored to the needs of DHS headquarters elements. I use my dual 
authority, as both the Under Secretary and Chief Intelligence Officer, 
to ensure that Department investments in intelligence programs, 
projects, and activities are focused on Departmental and National 
priorities, closing gaps, eliminating redundancies, and ensuring that 
investments in intelligence are measured for utility and outcome.
    I&A supports, interacts, and shares information with DHS 
headquarters elements in many ways. These include the following 
elements:
Science and Technology Directorate (S&T)
    S&T is one of I&A's principal Departmental customers. I&A provides 
monthly and ad hoc intelligence briefings to Dr. Tara O'Toole, the DHS 
Under Secretary for Science and Technology. These customized briefings 
are designed to meet her intelligence needs. I&A disseminates finished 
intelligence assessments to specific customers in S&T on a regular 
basis, and interacts with decision-making and subject matter expert 
counterparts at least several times a week. I&A participates in and 
manages intelligence community input to the threat elicitation phase of 
S&T's Chemical, Biological, Radiological, and Nuclear (CBRN) Terrorism 
Risk Assessments, including the Bioterrorism Risk Assessment, and the 
Integrated CBRN Terrorism Risk Assessment for the Department.
    I&A plays a significant role in supporting the Material Threat 
Assessments, which were developed by S&T to support the Secretary in 
issuing Material Threat Determinations pursuant to the Project 
Bioshield Act of 2004. Members of I&A also serve on the Biodefense 
Knowledge Center Advisory Board and the National Biodefense Analysis 
and Countermeasures Center Science Advisory Board.
National Protection and Programs Directorate (NPPD)
    I&A has a unique, ingrained relationship with the DHS Office of 
Infrastructure Protection (IP), which resides in NPPD. As you know, 
I&A's precursor organization combined the missions of intelligence and 
analysis with infrastructure protection. Today, I&A provides enduring 
support through its participation in the Homeland Infrastructure Threat 
and Risk Analysis Center (HITRAC), a Departmental fusion center 
designed to facilitate the sharing of threat and risk information with 
IP's public and private sector partners in the Nation's critical 
infrastructure community. I&A also collaborates closely with NPPD's 
cybersecurity elements, including the United States Computer Emergency 
Readiness Team (US-CERT).
            Support to Infrastructure Protection
    Through analysts assigned to HITRAC, I&A has provided regular, 
steady-state, and incident-specific classified and unclassified 
briefings and reports to Federal, State, local, and private sector 
critical infrastructure protection community members; supported the 
development of the annual National Risk Profile included in the 
Congressionally-required National Critical Infrastructure and Key 
Resources (CIKR) Protection Annual Report; and participated in 
exercises designed to improve public and private sector responses to 
current and emerging threats to critical infrastructure. Recent 
examples include supporting the July 2010 tabletop exercise on reducing 
the vulnerability of the U.S. food supply to intentional contamination 
and subsequent Infrastructure Protection Note, as well as a May 2010 
five-city classified briefing series on the Nation's evolving threat 
picture to State and local critical infrastructure partners.
    I&A further supports IP's efforts to build critical infrastructure 
expertise in State and local fusion centers. For example, I&A and IP 
are jointly conducting a training course for State and local fusion 
center infrastructure analysts to provide them with an overview of risk 
analysis trade-craft, including threats to critical infrastructure. I&A 
and IP are also collaborating to support an exchange program that 
brings State and local fusion center infrastructure analysts to 
Washington, DC for threat briefings and training--an iteration of this 
program is occurring this week. Most recently, I&A and IP held a joint 
annual meeting for I&A's fusion center analysts and IP's field-deployed 
Protective Security Advisors to facilitate collaboration and mutual 
awareness.
    I&A and IP work together on additional specialized projects and 
programs. For example, they are collaboratively developing 
infrastructure sector-specific intelligence requirements and a 
comprehensive information requirements process, which will further 
improve the ability of I&A and the intelligence community to meet the 
information needs of the Nation's critical infrastructure community. 
I&A works closely with IP's Office for Bombing Prevention (OBP) on 
issues related to improvised explosive devices and chemical, 
biological, radiological, and nuclear (CBRN) and explosive threats, and 
supports IP's operational programs such as Enhanced Critical 
Infrastructure Protection security surveys at critical infrastructure 
facilities and the Regional Resiliency Assessment Program. I&A reviews 
and provides substantive comments on information reports derived from 
OBP's Technical Resource for Incident Prevention (TRIPwire), which 
describe terrorist use of bombs and Improvised Explosive Devices. I&A 
products are frequently posted on the TRIPwire portal for use by 
applicable stakeholders.
            Support to Cybersecurity
    I&A provides substantial and growing support to the cybersecurity 
and protection activities of the Department. This support includes 
tactical and strategic threat intelligence analysis for elements of 
NPPD's Office of Cybersecurity and Communications. I&A delivers 
tactical intelligence support--situational awareness and early warnings 
of potential cyber threats that combine all-source analysis with data 
from EINSTEIN sensors--to the National Cybersecurity and Communications 
Center (NCCIC), US-CERT, the National Coordinating Center for 
Telecommunications (NCC), and the Industrial Control Systems Cyber 
Emergency Response Team (ICS-CERT). I&A publishes Homeland Information 
Reports derived from intrusion or other exploited cyber data, which 
identifies cyber-focused collection gaps and generates requirements 
based on these gaps. I&A further develops and delivers strategic 
intelligence products and services, such as assessments, briefings, and 
teleconference support, to numerous customers, including CIKR customers 
through Sector Coordinating Councils (SCC), Government Coordinating 
Councils (GCC), and State and local government authorities. These 
products can relate to cybersecurity or physical cyber-related 
infrastructure.
Office of Operations Coordination and Planning (OPS)
    I&A has a mutually reinforcing relationship with OPS; I&A is the 
Department's primary intelligence element and OPS is responsible for 
maintaining full awareness of all DHS activities and relevant 
developments. I&A's primary support to OPS is in providing needed 
intelligence and information to the National Operations Center (NOC). 
I&A maintains an embedded classified-level watch and warning function 
at the NOC that serves as the immediate conduit for intelligence and 
information obtained from I&A's myriad customers.
    I&A coordinates with OPS to address requirements for the 
Department's Single Point of Service (SPS) program. This program, 
consisting of elements from the NOC, I&A, and the DHS Office of 
Intergovernmental Affairs, processes support requests in a visible, 
transparent, and accountable manner. Support requests include requests 
from State, local, Tribal, and territorial partners for support to 
include Requests for Information, classification downgrades, on-site 
training, and briefing support. I&A ensures that support requests 
forwarded by the NOC conform to I&A's authorized missions, qualitative 
standards, and legal and regulatory requirements; protect individual 
privacy, civil rights, and civil liberties; are responsive to the 
requirements of I&A customers; and maintain the integrity of the 
Departmental intelligence process.
    I&A directly supports OPS via its embedded Operations Intelligence 
staff. For example, our health intelligence team supported OPS' H1N1 
Operations Planning Team during the H1N1 pandemic. More recently, I&A's 
Operations Intelligence staff and chemical and biological threats 
analysts were fully integrated into developing and implementing 
Departmental CBRN and health response plans. This was done in close 
tandem with OPS and other Department elements and components.
    Even though the DHS Chief Intelligence Officer is the head of the 
Department's statutory program to support State and local fusion 
centers, OPS, mainly through the NOC, has key responsibilities in 
furthering the Department's commitment to sustain and support fusion 
centers. I&A appropriately coordinates with OPS in salient areas such 
as fulfilling support requests received from fusion centers.
Domestic Nuclear Detection Office (DNDO)
    I&A provides strategic intelligence assessments that focus on 
threat actors, their claims, and their plans to attack the United 
States with radiological and nuclear materials. These assessments 
support DNDO's policymaking and resource planning efforts. In addition, 
I&A produces baseline and estimative intelligence products to enable 
Global Nuclear Detection Architecture (GNDA) planners to anticipate 
adversaries' future capabilities and intent and develop a better 
understanding of the future environment in which the GNDA will operate. 
I&A products support DNDO as the Departmental lead in developing the 
GNDA, which includes red teaming and reviewing deployment strategies.
Office of Health Affairs (OHA)
    I&A's partnership with OHA entails close collaboration at multiple 
levels. I&A provides tailored monthly briefings for Assistant Secretary 
and Chief Medical Officer Dr. Alexander Garza to address his key 
intelligence questions. I&A produces intelligence analysis to meet 
OHA's unique information needs; for example, I&A recently provided 
tailored analysis and briefings to support OHA's BioWatch Program. I&A 
coordinates with OHA to provide the Secretary, DHS elements and 
components, and State, local, Tribal, territorial, and private sector 
customers with appropriate products that detail CBRN and health 
intelligence threat assessments, as well as related medical 
countermeasures and infectious disease mitigation techniques.
    I&A and OHA collaborate closely on the Health Security Intelligence 
Enterprise (HSIE), a joint initiative to integrate the public health 
and health care communities into the Department's intelligence and 
information sharing programs and processes. The HSIE focuses on 
building multidisciplinary partnerships to facilitate a two-way flow of 
information among State and local health officials and the National 
network of State and local fusion centers. The on-going collaboration 
and coordination for the HSIE initiative represents a valuable 
partnership between I&A and OHA.
    On the programmatic front, I&A coordinates with the National 
Biosurveillance Integration Center (NBIC) on a regular basis, 
participating in its daily biosurveillance teleconferences, providing 
salient finished intelligence products, and responding to NBIC's 
requests for information on disease events around the world. As part of 
this partnership, I&A provided the medical intelligence briefing for 
the inaugural Food Protection Workshop that NBIC cosponsored with the 
Federal Food Safety and Inspection Service (U.S. Department of 
Agriculture) this summer.
Office of Policy
    I&A provides distinct intelligence support to DHS' Office of Policy 
in ensuring that its decisions and initiatives are informed by the 
latest intelligence and threat analysis. This includes focused support 
on counter-terrorism, watch-listing and screening, National and 
international information-sharing access agreements, Departmental 
strategic planning and risk management, and preventing the unauthorized 
acquisition or use of CBRN materials and capabilities. For example, we 
provided intelligence that supported Policy's involvement in the 
implementation of Executive Order 13546, ``Optimizing the Security of 
Biological Select Agents and Toxins in the United States.''
    Multiple I&A divisions, including its Strategies, Plans, and Policy 
Division, Information Sharing and Intelligence Management Division, and 
its Border Security Division, work in close collaboration and 
cooperation with various elements within the Office of Policy. These 
engagements ensure that the decisions and initiatives of sub-offices 
within Policy are informed by the latest intelligence.
    Our program and intelligence analysts coordinate with the Office of 
Policy in addressing intelligence requirements for the Visa Waiver 
Program. Using the mandate from the 9/11 Act, the Director of National 
Intelligence designated DHS as the lead intelligence community entity 
responsible for biennial Visa Waiver Program assessments. We 
independently assess the integrity and security of travel processes and 
documentation for each country in or applying to the program to address 
the potential for illicit actors--including transnational criminals, 
extremists and terrorists--to exploit travel systems and the security 
environment that can facilitate unlawful access to the United States.
    I&A, as the statutory lead for establishing intelligence policy for 
the Department's intelligence enterprise, ensures appropriate 
coordination with the Office of Policy in all our intelligence and 
information sharing activities. I&A provides direct intelligence policy 
input to the formulation of Office of Policy strategies and 
initiatives, such as those associated with our Southern and Northern 
borders, counterterrorism, screening coordination, and information-
sharing with U.S. and international partners.
Office of Security
    I&A provides significant support to the Office of the Chief 
Security Officer on a variety of issues, including the development of 
implementation guidelines for Executive Orders impacting classified 
information management. Other pertinent collaborative activities 
include the issuance of security clearances to non-Federal partners and 
building and accrediting Sensitive Compartmented Information 
Facilities, or SCIFs.
Office of Counternarcotics Enforcement (CNE)
    I&A provides CNE with analytic and intelligence support for its 
efforts to coordinate DHS responsibilities to stop the entry of illegal 
drugs into the United States, and track and sever the connections 
between drug trafficking and terrorism. I&A is a member of the CNE-led 
Counternarcotics Coordinating Council, a body that coordinates 
Department counternarcotics policy and operations.
    I&A provides substantial support to the development of National and 
DHS counternarcotics strategies. Significantly, I&A served as a co-
chair, along with the U.S. Drug Enforcement Administration, of the 
interagency effort to develop the intelligence and information-sharing 
chapter in the 2009 National Southwest Border Counternarcotics 
Strategy. I&A is responsible for tracking over 100 such interagency 
initiatives alongside CNE, and is currently assisting CNE in the 
development of a DHS strategy to combat the links between drug 
trafficking and terrorism.
    I&A supports CNE with subject matter expertise on drug trafficking 
trends along our Northern and Southern borders, serving as CNE's link 
to the intelligence community for obtaining information and 
intelligence on the threats posed by international drug trafficking and 
on the connections between drug trafficking and terrorism. I&A works 
closely with CNE to ensure that its information needs are incorporated 
into the DHS Standing Information Needs (SINs). DHS SINs identify the 
universe of enduring intelligence needs of the Department, and allow 
the DHS Chief Intelligence Officer to focus collection, analytic, and 
reporting activities and efforts based on the distinct needs of the 
Department and its customers. I&A also facilitates CNE's requests for 
information to the intelligence community on international drug 
trafficking and drug-terror nexus issues.
       other areas of interaction with dhs headquarters elements
National Security Systems
    I&A management of the DHS National Security Systems (NSS) Program 
provides a significant enabling capability to Departmental decision-
makers, including in headquarters elements. The NSS is a joint 
initiative between I&A and the Office of the Chief Information Officer 
(OCIO). The Deputy Secretary chartered the NSS in January 2009 to bring 
a One DHS approach to the management of all classified information 
technology infrastructure provided by DHS, including networks, secure 
communications, and enterprise services. This joint initiative 
institutionalizes a strong mission partnership between OCIO and I&A in 
the relatively small and specialized--but critical--area of classified 
information technology capability.
    The NSS Program provides clear benefit for DHS headquarters 
elements, as well as operational components, to ensure their users have 
appropriate access to classified information technology infrastructure, 
such as the Homeland Secure Data Network. These benefits include 
consolidated, enterprise-level management of all classified information 
technology services; strengthened alignment to Departmental and 
component mission priorities; coordinated investments for efficiency 
and interoperability; and improved service delivery and transparency.
Intelligence Training
    I&A supports DHS headquarters elements by offering many 
intelligence tradecraft and other related training multiple times each 
year. Intelligence training is a critical capability that enables 
fulfillment of the Department's intelligence mission. We are building 
on existing intelligence training successes and expanding this program 
to establish a culture of disciplined and uniform intelligence 
capabilities throughout the Department. Strong intelligence tradecraft 
across the Department serves the dual purpose of making headquarters 
consumers of intelligence more informed of what intelligence can--and 
cannot--provide to DHS decision-makers.
                        strengthening interface
    In preparing for this hearing, I identified several areas in which 
I&A can improve its support to DHS headquarters elements. We are making 
strides in how we provide the Secretary and Deputy Secretary tailored 
and timely all-source intelligence briefings. We have engaged key 
decision-makers across the Department and asked them how I&A can better 
fulfill their requirements. I have found the feedback from these 
inquiries to be both helpful and substantive.
    I&A has used this feedback to accelerate understanding of 
Departmental policy deliberations and the programmatic activities of 
DHS headquarters elements. Stronger insight by I&A into Departmental 
policy and programmatic matters will make us more attuned to the needs 
of our customers, and thus more focused on the core intelligence 
questions and needs of DHS decision-makers.
                               conclusion
    Members of the subcommittee, I appreciate the opportunity to appear 
before you today to discuss how I&A supports and coordinates with 
headquarters elements within the Department. I&A has made significant 
strides, and continues to adapt to the current and emerging needs of 
our partners and customers across the Department. I&A has a vital and 
unique mission and continues to improve its strategic posture to more 
effectively support core customers, including DHS headquarters 
elements.
    I&A's efforts to manage, collect, analyze, and share intelligence 
and information will continue to be guided by the dual imperatives of 
protecting the country from those who wish to do us harm, and 
protecting the privacy, civil rights, and civil liberties of our 
citizens. With your support, the leadership of Secretary Napolitano, 
and the fine men and women of I&A, I believe we can accomplish our 
multi-faceted mission and help DHS headquarters elements accomplish 
theirs. I look forward to keeping the subcommittee and Congress 
apprised of I&A's continued progress in this important area, as well as 
our progress in leading and strengthening the critical intelligence 
mission of the Department.
    Thank you for your time, and I look forward to your questions.

    Ms. Harman. Thank you for your testimony. Let me say for 
the record that other Members of the subcommittee are permitted 
to submit opening statements for the record. None of them is 
here at the moment, but they can do this at a later time.
    [The statements of Chairman Thompson and Hon. Richardson 
follow:]
           Prepared Statement of Chairman Bennie G. Thompson
    I have been a vocal critic of the way the intelligence community 
interacts with other agencies outside of their community.
    This is the sort of conversation I have heard, and I am confident 
you have heard it, too, when people are talking about sharing 
information:
  <bullet> ``What do you have?'' ``What do you need?''
  <bullet> ``How do I know what I need if you don't tell me what you 
        have?''
  <bullet> ``How can I tell you what I have that can help you, if you 
        don't tell me what you need in the first place?''
    And so on.
    In the end, those outside of the intelligence community do not know 
what the intelligence community has and those inside the intelligence 
community do not have a clear idea of what everyone else needs.
    The same thing seems to be happening inside DHS, with offices and 
agencies throughout the Department needing intelligence but not getting 
it from I&A--and I&A having intelligence that could be useful to these 
offices and agencies, but not knowing that they need it.
    The way I see it--as a leader--there are some common sense actions 
that the Under Secretary for Intelligence and Analysis needs to take so 
that the Department can become more efficient.
    First, you need to find out who needs what intelligence, and where 
they are getting it from, if anywhere.
    The answer to that question is pretty clear when it comes to the 
other intelligence elements in the DHS components, but not so for the 
headquarters elements.
    Second, you need to identify which DHS activities are lacking 
critical intelligence. I realize this sounds difficult, but it just 
means taking the time to get to know other people and other 
organizations, and helping them to see what you can provide.
    Third, you need to open your own doors and allow others in, so they 
can see what you have and determine what might be useful.
    I am not talking about sharing intelligence with people who may or 
may not have a need-to-know. But I am talking about sharing enough 
information with people so that they can at least try to match their 
needs with your capabilities.
    I do not believe this should be a very difficult outcome to 
achieve.
    For example, every entity within the Department that creates a 
terrorism risk assessment (such as DHS S&T) should be getting 
intelligence from or through I&A.
    The same holds true for those creating risk assessments and making 
risk-based decisions (such as the Office of Health Affairs deciding 
where BioWatch detectors should be emplaced throughout the Nation, 
based on risk).
    I am sure you agree that words and phrases like ``threat 
assessment,'' ``terrorism risk assessment,'' ``threat determination,'' 
and ``intelligence policy'' are pretty obvious indicators.
    Under Secretary Wagner, I realize that this is not all on your 
shoulders. Granted, you have a lot of intelligence professionals 
working for you, but you should not need for them to have to use their 
spook skills to find out what is going on in the other headquarters 
elements.
    Secretary Napolitano has a responsibility to act as well. She needs 
to require every entity in the Department that has any need for 
intelligence to work with I&A--and for I&A to work with them.
    But it is up to you and your peers to make it happen--connecting 
the dots between intelligence and information sharing.
                                 ______
                                 
              Prepared Statement of Hon. Laura Richardson
                           September 29, 2010
    Mr. Chairman, thank you for convening this hearing today focusing 
on the extent to which the Department of Homeland Security's Office of 
Intelligence and Analysis interacts with other headquarters' elements 
within the Department. I would also like to thank the Honorable Caryn 
Wagner, DHS Under Secretary for Intelligence & Analysis and Chief 
Intelligence Officer, for appearing before the committee today to 
discuss these very important issues.
    The Department of Homeland Security's Office of Intelligence and 
Analysis (I&A) plays a dual role in ensuring the security of the 
homeland. First it is charged with collecting and analyzing 
intelligence information. Second, it is responsible for disseminating 
that information to departmental units and with intelligence-related 
functions or activities.
    As we've learned from experience, the gathering and sharing of 
intelligence within and across units of Government is critically 
necessary to protect this country from potential terrorist attacks. 
From the failed Times Square car bombing that led to the apprehension 
of Faisal Shahzad to the disrupted plot to attack New York's subway 
system, the sharing of information among our intelligence agencies has 
been, and will continue to be, a crucial tool in either preventing 
terrorist plots or providing the necessary information to making sure 
similar plots will not be successful in the future.
    However, there continue to be a number of issues with I&A that 
urgently need to be addressed. For example, it has been documented that 
where headquarters have not received intelligence by I&A in a timely 
manner, they have reacted by attempting to obtain it on their own, or 
develop their own sources, or use open source information that is often 
unreliable or incomplete. Thus, it is very important to for us to 
evaluate the timeliness, method, and adequacy by which I&A responds to 
the legitimate intelligence needs of its headquarters.
    I have a special interest in this subject because my district, the 
37th of California, contains a number of high-profile airports, rail 
lines, and refineries that could be considered potential targets for 
would-be terrorists. Thus, the ability of DHS to communicate and share 
intelligence effectively is not only critically important to me, but 
also vital to ensuring the security of the American people.
    I am pleased that Chairman Thompson convened this hearing because 
it provides an opportunity for committee members to understand and 
evaluate the current state of information sharing within the 
intelligence enterprise of DHS.
    I am particularly interested in discussing at length with the under 
secretary the ways and means she has identified in strengthening the 
capacity and performance of I&A.
    Thank you again Chairman Thompson for convening this hearing. I 
yield back my time.

    Ms. Harman. I thank you for your testimony, and just would 
note every time I hear the words ``DHS Intelligence 
Enterprise,'' I think of a battleship in a sci-fi movie. A lot 
of big words and a lot of huge acronyms. What we are trying to 
get at, just to be very clear, is whether you are a leader 
across these elements in this battleship, and are able in real-
time to get critical intelligence to the right folks so that it 
can be used correctly in time to prevent and disrupt plots. 
That is what we are after. We are not after memorizing an org 
chart, and we that are not trying to force you to memorize the 
org chart either. We are trying to be sure you are in a 
position to lead on intelligence and analysis issues in the 
departments of Homeland Security. Are you?
    Ms. Wagner. Yes, ma'am, I am, and I think people are 
looking to me to do that. I am trying to lead the intelligence 
elements of the Department, to make sure that we are all 
working together, that we are sharing all the information so 
that every element the Department is receiving from their intel 
support people the same information that they can use in their 
operational missions.
    So I would say that I lead the intelligence elements of the 
Department, but for the other, the operational components and 
the headquarters elements, I am in a supporting role which I 
think is appropriate, making sure that they have the 
information they need to do their missions. So it is a 
symbiosis, and I think that that is working better. They are 
more frequently looking to me for that.
    Ms. Harman. That is what we want to hear. They need to be 
looking to you. You need to have a seat at all the relevant 
tables, as the jargon goes, and to make certain that you are 
respected and consulted, and have input into other elements of 
your Department that deal with intelligence, right?
    Ms. Wagner. Yes, ma'am, and I feel that that is the case.
    Ms. Harman. We are trying to help you get there because our 
goal is not to play gotcha. Our goal is to make certain that 
you are performing at full capacity so that the I&A function 
horizontally is what it needs to be, and we are pleased to see 
its performance vertically improving now that we have someone 
with a law enforcement background as your deputy.
    I want to ask about two current events and just test you a 
little bit here. If we have time, I want to ask you one wonky 
organizational question.
    The Cyber Storm III exercise is being held this week. Is 
I&A contributing intelligence analysts to this exercise? Tell 
us about how you are doing this and your efforts to address the 
threat of cybersecurity in coordination with other offices 
within DHS. That is my first question, and I will put them both 
out so you can answer them both.
    Second, news reports as recent as last night, and maybe 
even today, have made public a terror plot in the United 
Kingdom and perhaps in France and Germany in which small teams 
of terrorists plan to seize and kill hostages similar to the 
Mumbai attacks in 2008. How have you or do you propose to work 
with your partners within DHS headquarters to inform and 
respond to this new development?
    Ms. Wagner. On the Cyber Storm exercise, I am actually 
attending that tomorrow afternoon, which should be extremely 
interesting. The analysts that I referred to who are embedded 
into the NPPD cyber organization have been active participants 
in developing and implementing this exercise. I and the Chief 
of my Cyber Analytic Branch, routinely attend the cyber jam 
sessions that are hosted by Phil Ridinger, who works for Rand 
Beers, as you know. So I feel we are extremely integrated into 
this; and, yes, we did participate in the development of the 
exercise.
    On item No. 2, I cannot really confirm anything about what 
is in the press, which I know will not surprise you because we 
don't want to compromise or undermine any on-going intelligence 
activities. I can assure you that we are actively engaged in 
monitoring on-going threat activity, of which there is always a 
significant amount, and are working very closely with other 
elements of the intelligence community and within the 
Department and with our foreign allies.
    We have instituted, just in general, some procedures for 
ensuring that we are delivering up-to-date intelligence to all 
members of the headquarters elements. We are now scheduling 
weekly briefings for all of the key staff elements in addition 
to having weekly video teleconferences with the components to 
ensure that we are all on the same page.
    So I think we have taken a lot of steps recently to make 
sure that everybody is in sync.
    Ms. Harman. I appreciate your care in answering that 
question. I too am not revealing anything that I have been 
briefed in a classified setting. But I just said that these 
news reports also say that the so-called storming operations 
could occur in the United States. That is your turf, and so I 
just wanted to be sure you are on it; and you are on it.
    My final question. Why aren't any of the other headquarters 
elements recognized as critical members of the DHS Intelligence 
Enterprise?
    Ms. Wagner. That is actually a good question, ma'am. I 
think that they are, and I don't know if you are quoting from 
the 2008 Intelligence Enterprise.
    Ms. Harman. That is our last Enterprise, the one with 
Charlie Allen's picture on it.
    Ms. Wagner. Exactly. We are in the process now of 
completing actually, and we hope to do so in October, a revised 
strategic plan. We actually had this conversation the other 
day, going, well, is it for I&A or is it for the Enterprise. My 
thought process is that since I am the Under Secretary and the 
CINT, that our strategic plan ought to be both for the I&A and 
for the Enterprise, and that should include not just the 
components but also the headquarters elements that we support.
    So I am personally going to make sure that is the case when 
it is completed. But I do view them as part of the Enterprise. 
In fact, they are some of our most important customers.
    Ms. Harman. Well, that is a great answer to my great 
question, and that is the way we hope you will be thinking 
about this. Please, no more stovepipes. I think we have had our 
fill of those. You need to act as the intelligence leader for 
the Department, obviously working for the Secretary, but the 
intelligence leader who is involved in all of the active 
problems out there that could lead to harm of our citizens and 
our communities. We see you as a very key player here, and we 
are holding this hearing to make certain that you understand 
how we view your role and that you take your vitamins.
    I now yield to the Ranking Member for his questions.
    Mr. McCaul. Thank you, Madam Chair.
    I think you addressed this in your testimony, but on the 
vertical information sharing, we were just getting some 
reporting from some of the fusion centers that DHS was going 
around it and maybe going straight to the State homeland 
security coordinator, but you are aware of that and you have 
taken action to address that?
    Ms. Wagner. Yes. We are trying to synchronize all of those 
interactions through our State and Local Program Office, and 
there are a lot of on-going relationships with State and local 
governments that elements have that have gone back for quite 
some time. So it is well meaning and we just need to make sure 
that we are all aware so that we are not coming at the States 
from multiple, different uncoordinated directions. We are 
trying to achieve that. I can't claim that we are 100 percent 
effective yet, but it is steadily improving.
    Mr. McCaul. That is good to hear.
    On the horizontal information-sharing side, I think the 
last time you testified we talked a little about the National 
Fusion Center Program Office, and I understand since that time 
the appropriators have denied that reprogramming. So I was just 
curious as to what the Department is doing to move forward on 
that.
    Ms. Wagner. Actually, I appreciate the opportunity to 
answer that question.
    Mr. McCaul. Thanks.
    Ms. Wagner. We sort of pitched a concept that was based on 
the fact that we had two related but distinct responsibilities 
to fulfill. One was, as you all are terming it, the horizontal 
sort of relationships within the Department, again addressing 
your issue, making sure that we are coordinating all 
Departmental interactions with State and local governments 
through the fusion centers, and that was going to be the Joint 
Fusion Center Program Management Office. The National Fusion 
Center Program Management Office was going to address the 
larger whole of Government coordination responsibilities that 
we were assigned by the White House, to include working with 
the FBI and ONDCP and others.
    We still have those two functions to fulfill. We understand 
that the proposal we made looked overly bureaucratic. So what 
we have done to move ahead is we have combined those two 
functions in one office with shared infrastructure, and so it 
will be a more streamlined, leaner effort. But we will continue 
to fulfill both of those sets of responsibilities. At the 
moment it is still being called the State and Local Program 
Office, which is what it was before. We are exploring with our 
Congressional oversight committees whether we could possibly 
change the name, possibly to the National Fusion Center Program 
Management Office, but we will have those conversations so that 
we are completely in sync with our overseers.
    Mr. McCaul. I guess the appropriators' concerns were that 
it was two different offices, maybe it was duplicative and it 
was costing too much money, was that their concern, and your 
response was to put it within one office?
    Ms. Wagner. I do think that was part of their concern. 
Also, I am not sure that we explained it completely. We have 
had subsequent conversations with everybody, and I am hoping 
that we are all in agreement that the way forward we proposed 
makes sense.
    Mr. McCaul. I was looking at the diagram of the DHS 
Intelligence Council. I think I mentioned this in my opening 
statement. One entity that is not in here that I was a little 
surprised with was the cyber piece. Why is that not included in 
this organizational chart?
    Ms. Wagner. Probably also a good question. Our relationship 
with NPPD tends to focus mostly on infrastructure protection, 
and so they are in fact at the table and we do occasionally 
discuss the issues and they basically represent NPPD at the 
forum. They are welcome also if there is a cyber-related topic 
on the agenda, to bring anybody that they would like with them 
to the HSIC. In fact, we frequently have sort of guest 
attendees at the HSIC. But I may in fact ask that question 
myself when I get back.
    Mr. McCaul. One other entity, the S&T, Science and 
Technology, is doing threat assessments as well, I saw. I was 
kind of curious why they are doing that; and if they are, why 
aren't they part of this as well?
    Ms. Wagner. I am not aware that they are doing threat 
assessments per se. I may have to take that one for the record.
    Mr. McCaul. The information I have is that they are. You 
may want to take a look at that.
    Ms. Wagner. We work with them to do threat assessments that 
they put out. They do sort of risk assessments in some areas, 
and we always provide the threat piece of a larger risk 
assessment. So if that is--and we do interact with S&T and with 
Health Affairs on those types of risk assessments. I don't 
think of them as being threat assessments, I think of them as 
being risk, which as I mentioned before combines the threat 
vulnerabilities and consequences, and we do participate in 
those.
    Mr. McCaul. On infrastructure protection in the private 
sector, particularly in cyber, the cyber world, that has been 
very difficult. The ISACs, the Information Sharing Analysis 
Centers, are out there. Can you give me an update on where the 
Department is with the sharing of critical information sharing 
with the private sector for infrastructure protection?
    Ms. Wagner. Generally speaking, we, I&A, partner with 
Infrastructure Protection to provide information on critical 
infrastructure, including cyber infrastructure, to the private 
sector. We do a lot of that through the Sector Coordinating 
Councils and other existing mechanisms, such as involving 
DSACs, Domestic Security Adviser Councils. We also do a lot of 
table top exercises and those kinds of activities with the 
private sector to try to help them understand the nature of the 
threat and terrorist tactics, techniques, and procedures, to 
help them work through some of these issues. We have recently 
done one with the hotel industry. In fact, I think we did two. 
We put a product on that topic as well. Basically, again, we 
teamed with infrastructure protection to provide the threat and 
vulnerability information, and then we get the information out, 
either through written products, conferences, telephone 
conferences, or some of these exercises that we run and invite 
key representatives of the various sectors.
    Mr. McCaul. Is there a two-way flow of threat information 
between DHS and the private sector and vice versa?
    Ms. Wagner. I think the answer to that is yes, although the 
flow back to DHS I think is less developed, as it is sort of 
across the board. We are working with the FBI on the Suspicious 
Activity Reporting Initiative, which I am sure you are aware 
of, which would also pertain to the private sector and in fact 
the public at large. So we are hoping to get more information 
as that becomes more socialized. So yes, we do get information.
    Mr. McCaul. What are some of the obstacles that you see 
that prohibit or discourage the private sector from sharing 
this information with you?
    Ms. Wagner. I think probably the fact that the private 
sector is just so large that--I will frequently hear from 
people, well, the private sector is saying you don't share 
anything with them. We are trying to increase our level of 
interaction with the private sector, but it is so huge that you 
are unfortunately impacting only a small percentage. I think 
part of the real challenge is just educating them on what we 
can do and making sure that they know where to come into the 
Enterprise, if you will, if they have information. They are 
always free to go to their local fusion center, directly to the 
JTTF with terrorist information, but we also need to make it 
clear that there are other avenues for them and educate them. I 
think that the sheer magnitude of building that relationship is 
a challenge.
    Mr. McCaul. Okay. That is all I have.
    Ms. Harman. Thank you. If you have another question, feel 
free to ask it. I have one more question and one observation.
    I will make my observation first, which is that the key 
ingredient is leadership. It is not the org chart, but I 
appreciate the Ranking Member's additions to your org chart. 
But it isn't the org chart, it isn't the underlying law, it is 
leadership. As you well know, threats against us are evolving, 
and while the best we can do is to manage risk, and I agree 
with that, what risks we manage have to be reconsidered all of 
the time. So you need to lead the Intelligence Enterprise of 
the Department of Homeland Security, and that is our hope and 
expectation.
    In that regard, my last question is: Do you need anything 
from us?
    Ms. Wagner. I really appreciate this committee's support. I 
think that is all I need, and I feel I am getting it. I feel 
you all are clearly motivated to help us succeed, and believe 
me, that is very much appreciated.
    Ms. Harman. I appreciate your answer. If you lose, we all 
lose. Let's understand that. We are in this together. Now my 
rather old sound bite is the terrorists won't check our party 
registration before they blow us up. We really are in this 
together.
    So I appreciate the fact that the Ranking Member works 
closely with me on these things, and I don't think we have had 
a disagreement about the course or agenda of this subcommittee, 
not even one.
    Let me yield to him for a final thought or observation or 
question.
    Mr. McCaul. Thank you, Madam Chair. I also appreciate our 
close working relationship.
    You know, this is a little bit off topic for this hearing, 
but since we have you held hostage for at least 30 minutes, I 
am becoming increasingly more concerned not so much about 
command and control of al-Qaeda, or the threat coming from 
there, but more these sort of franchise operations, but even 
more so--and we had a couple of hearings on this, and I 
appreciate Madam Chair doing it--on internet radicalization. I 
am becoming more and more concerned about disenfranchised 
Muslims or even some non-Muslims, people getting on the 
internet, listening to someone like Awlaki or talking to him 
like Mr. Hassan did, and suddenly radicalizing and then we have 
an act of terrorism.
    Can you touch that at all or discuss if you see that threat 
becoming increasingly more of a threat?
    Ms. Wagner. I think we are concerned that that is becoming 
more of a threat, and the intelligence community is focused on 
what more can we do to understand the process of radicalization 
in order to do really two things, to help law enforcement in 
our communities identify and possibly interrupt that process 
and also to advise the policy community on what types of 
engagement or policy interventions might actually be effective.
    In the wake of the Christmas day bombing, Rudy and I tasked 
my office to lead an interagency effort with FBI and NCTC to 
try to improve our analytic understanding of this problem.
    Since the last time I spoke to you, we developed and 
incorporated an action plan with the community. We did receive 
some money from the DNI to do this, and we have worked on a 
series of case studies for some of the people that have been 
radicalized and performed violent acts that we are now going 
out and discussing with our partners in the fusion centers and 
our State and local law enforcement folks, to say, okay, here 
is what we found out, is this useful to you? What more can you 
add? Particularly in areas where there may be communities about 
which the local law enforcement people know a lot and can give 
us information.
    We are also working closely with our allies who have 
experienced some of these problems to ensure that we understand 
what their best practices are, both analytically and in things 
like community policing, those kinds of issues, and obviously 
with academia as well, because this is partially an 
intelligence problem and partially a human behavior problem.
    I don't want to minimize the difficulty of understanding 
why some people who are radical or have extremist views--and 
that is not illegal--take that next step and go into violent 
manifestations of those views. Difficult to predict, and very 
difficult to predict if they are sitting in their basement on 
the internet.
    Mr. McCaul. One of the magazines, I think it was Inspire--
--
    Ms. Wagner. Inspire.
    Mr. McCaul. They had how to make a bomb in your mom's 
kitchen. I showed it to a group back home, a video of Awlaki I 
think is on the internet, and they weren't as concerned with 
him as much they were with the rap video that was very 
disturbing. That is a clear effort to recruit in sort of a 
totally different way, that is trying to cater to maybe a 
younger audience and trying to--you know, it is sort of a hip-
hop rap-type video.
    Ms. Wagner. There is clearly an effort to reach out in ways 
that are consistent with pop culture and that will appeal to 
people of a certain age and background, so that is a concerning 
developing. But we are working on this, but it is a difficult 
problem.
    Mr. McCaul. Thank you.
    Ms. Harman. Well, we are working on it, too. We have had a 
series of careful hearings on this. This rap video and some of 
these other things were shown to us at one of our hearings.
    I would just underscore something you said, Secretary 
Wagner, which is that radical views are protected by the First 
Amendment. The forming of our Republic, in many ways, was a 
radical act. What we are concerned about is that line between 
holding radical views, which is protected, and engaging in 
violent behavior, which is illegal.
    We are obviously trying to understand what takes a person 
into that second box. It is a complicated subject and one size 
does not fit all, but it is urgent business for the United 
States of America. I think we all agree on this.
    I want to thank you for your valuable testimony and thank 
the Ranking Member for his insightful questions.
    As I have mentioned, the Members of the subcommittee may 
have additional questions for the witness, and we will ask 
other questions of these elements inside the Department of 
Homeland Security with which you interact so we get a full 
picture of these relationships.
    We would ask that you respond, that you and they respond 
expeditiously in writing to those questions. I assume that is 
acceptable to you.
    Ms. Wagner. Yes, ma'am.
    Ms. Harman. Hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
                the Office of Intelligence and Analysis
    Question 1. What do you want your legacy to be when you leave I&A, 
as far as the rest of the Department is concerned?
    Answer. Response was not received at the time of publication.
    Question 2. What do you think can and should be done to improve 
connectivity between I&A and the other headquarters elements?
    Answer. Response was not received at the time of publication.
    Question 3. We recently learned from the Office of Operations 
Coordination that I&A often provides a classified annex for their 
planning documents. Does intelligence from I&A inform all levels of the 
planning process at DHS?
    Answer. Response was not received at the time of publication.
    Question 4. Which headquarters elements does I&A interact with 
significantly? Please expand on what you submitted in your written 
testimony regarding these interactions.
    How does I&A track its interaction with these elements?
    Answer. Response was not received at the time of publication.
    Question 5. How does the strategic plan for the DHS Intelligence 
Enterprise address the needs of the headquarters elements?
    Do you have processes in place to continuously identify needed 
improvements and changes to the products and services I&A provides to 
the headquarters elements?
    How important is collaboration with the headquarters elements when 
it comes to DHS intelligence processes?
    Answer. Response was not received at the time of publication.
    Question 6. What information does I&A receive from the headquarters 
elements? What more do you need?
    Answer. Response was not received at the time of publication.
    Question 7. How can you as Chief Intelligence Officer (CINT), 
maintain insight into the intelligence needs of non-traditional DHS 
partners, specifically those who are not formally part of the 
Intelligence Enterprise?
    Answer. Response was not received at the time of publication.
    Question 8. Are you confident that you have you identified all 
parts of DHS that need intelligence or conduct intelligence-related 
activities? Have you added them all to the DHS Intelligence Enterprise? 
If not, why not?
    Answer. Response was not received at the time of publication.
    Question 9. The DHS Intelligence Enterprise organizational chart 
has some solid lines and some dotted lines, which, according to the 
chart, indicate offices without key intelligence officials. Would you 
please expand upon the relationships shown in the chart?
    Would you please explain why other DHS elements, such as the Office 
of Cyber Security and the Office of Health Affairs do not appear as 
part of the chart?
    Answer. Response was not received at the time of publication.
    Question 10. Do you believe that it is through your role as CINT or 
through your role at Under Secretary for Intelligence and Analysis, 
that you chair the Homeland Security Intelligence Council (HSIC)?
    We have heard very good things from component members of the HSIC 
about the improvements you have made to the Council. Are all members of 
the HSIC--to include I&A, the components with larger intelligence 
functions, and those organizations connected by ``dotted lines'' on the 
chart--truly equal partners with equal voice? Would you please explain 
how you are able to ensure full partnership for all members?
    Answer. Response was not received at the time of publication.
    Question 11. Have you done a complete, end-to-end strategic 
analysis of all DHS intelligence and intelligence-related activities?
    Answer. Response was not received at the time of publication.
    Question 12. We have seen the charts showing I&A relationships. How 
well connected would you say I&A is to all of its Departmental 
partners? How could these connections be strengthened?
    Answer. Response was not received at the time of publication.
    Question 13. When organizations do not get the intelligence they 
need from others, they tend to try to create it themselves. What can 
I&A do to prevent this from happening in the Department?
    Answer. Response was not received at the time of publication.
    Question 14. We have seen the problems that I&A and IP have had 
being together and being apart, organizationally. Have these problems 
been solved?
    What challenges remain with I&A working with IP?
    Answer. Response was not received at the time of publication.
    Question 15. Who is ultimately accountable for the Homeland 
Infrastructure Threat and Risk Analysis Center's analytic products, I&A 
or NPPD? Who publishes the products?
    Answer. Response was not received at the time of publication.
    Question 16. How well do you think the Homeland Infrastructure 
Threat and Risk Analysis Center is functioning? What are some areas 
could be improved?
    Answer. Response was not received at the time of publication.
    Question 17. In the military, S-2 (intelligence) is almost always 
paired with S-3 (operations). How is this working between I&A and the 
DHS Office of Operations Coordination?
    Answer. Response was not received at the time of publication.
    Question 18. A number of entities within DHS are creating terrorism 
risk assessments, including DHS S&T. Have you identified all of the DHS 
entities making similar assessments? Does I&A provide all of them with 
intelligence?
    Answer. Response was not received at the time of publication.
    Question 19. I understand that I&A participates in an integrated 
product team (IPT) to get its information sharing needs met. Would you 
please describe I&A's participation, and the benefits of your 
involvement?
    Answer. Response was not received at the time of publication.
    Question 20. The Office of Health Affairs (OHA) is currently 
responsible for producing an intelligence-based biodefense 
architecture. Can you offer some examples of the kind of intelligence 
that I&A could provide OHA to help in such an endeavor?
    Answer. Response was not received at the time of publication.
    Question 21. What is the nature of the medical intelligence that 
I&A provides to OHA?
    Answer. Response was not received at the time of publication.
    Question 22. The National Biosurveillance Integration Center is an 
OHA operational entity that uses a great deal of open source 
information. Do you think there are other types of intelligence that 
could be of value, which I&A is in a position to provide?
    Answer. Response was not received at the time of publication.
    Question 23. How does I&A support risk assessments with timely 
intelligence in various areas of the Department?
    Answer. Response was not received at the time of publication.
    Question 24. What is the relationship between I&A and the Office of 
Risk Management and Analysis?
    Answer. Response was not received at the time of publication.
    Question 25. In which DHS headquarters elements have you embedded 
I&A analysts?
    Answer. Response was not received at the time of publication.
    Question 26. It appears that there are three types of relationships 
that the Under Secretary for Intelligence and Analysis needs to manage: 
(1) Between I&A and the other members of the intelligence community; 
(2) between I&A and the other intelligence elements inside the DHS 
components; and (3) between I&A other DHS headquarters elements. How do 
you manage those relationships?
    Answer. Response was not received at the time of publication.
    Question 27. We understand that I&A is going to be developing 
intelligence doctrine for DHS. DHS may well be the only Department that 
is creating intelligence doctrine anew. What is the plan for developing 
this doctrine?
    Answer. Response was not received at the time of publication.
    Question 28. How does I&A facilitate relationships between non-
intelligence organizations within DHS and intelligence organizations 
outside of DHS?
    Answer. Response was not received at the time of publication.
    Question 29. DHS, DOD, and the intelligence community are working 
on bioforensics right now. DOD aside, how is I&A helping to get the 
intelligence community to work with DHS--specifically with the DHS 
National Bioforensics Analysis Center?
    Answer. Response was not received at the time of publication.
    Question 30. Aside from going to meetings at the White House when 
he cannot, what kind of support do you, and the Office of Intelligence 
and Analysis provide to DHS's Chief Counterterrorism Official and vice 
versa?
    Answer. Response was not received at the time of publication.
    Question 31. In your testimony, you described how your customers 
for intelligence could be viewed as a series of concentric circles. How 
do you prioritize the sharing of intelligence with the private sector 
specifically, as compared with serving the needs of other DHS 
components or State and local governments?
    How do you balance these competing interests in terms of resources? 
How many analysts do you have dedicated to the private sector?
    Answer. Response was not received at the time of publication.
    Question 32. Do you have standard operating procedures or protocols 
that govern the sharing of information with components and their 
respective customers and partners?
    Specifically, is the way by which intelligence is shared with the 
private sector done in a consistent way, or is it determined on a 
threat-by-threat basis?
    If it is not consistent, why not? And does this result in delays in 
the sharing of threat information with the private sector?
    Answer. Response was not received at the time of publication.
    Question 33. Is it the policy of DHS to put a priority on sharing 
intelligence with the private sector through fusion centers or through 
the Homeland Infrastructure Threat and Risk Analysis Center (HITRAC)?
    Answer. Response was not received at the time of publication.
    Question 34. How will I&A's reorganization affect HITRAC? Will 
HITRAC continue to be a priority after the reorganization?
    Answer. Response was not received at the time of publication.
    Question 35. What is your vision for HITRAC and in what way does 
HITRAC enhance your ability to support the private sector specifically?
    Answer. Response was not received at the time of publication.
    Question 36. How many staff does I&A have dedicated to HITRAC?
    Answer. Response was not received at the time of publication.
    Question 37. Does the Department include the private sector in 
determining collection requirements for intelligence?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
                the Office of Infrastructure Protection
    Question 1. What do you think can and should be done to improve 
connectivity between the Office of Infrastructure Protection and the 
Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Office of Infrastructure Protection track 
its interaction with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Office of Infrastructure Protection obtain 
intelligence from members of the intelligence community without going 
through I&A in the first place? If so, why?
    Answer. Response was not received at the time of publication.
    Question 4. We have seen the problems that I&A and IP have had 
being together and being apart, organizationally. Have these problems 
been solved?
    What challenges remain with I&A working with IP?
    Answer. Response was not received at the time of publication.
    Question 5. Who is ultimately accountable for the Homeland 
Infrastructure Threat and Risk Analysis Center's analytic products, I&A 
or NPPD? Who publishes the products?
    Answer. Response was not received at the time of publication.
    Question 6. How well do you think the Homeland Infrastructure 
Threat and Risk Analysis Center is functioning? What are some areas 
could be improved?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
                 the Office of Operations Coordination
    Question 1. What do you think can and should be done to improve 
connectivity between the Office of Operations Coordination and the 
Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Office of Infrastructure Protection track 
its interaction with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Office of Operations Coordination obtain 
intelligence from members of the intelligence community without going 
through I&A in the first place? If so, why?
    Answer. Response was not received at the time of publication.
    Question 4. In the military, S-2 (intelligence) is almost always 
paired with S-3 (operations). How is this working between I&A and the 
DHS Office of Operations Coordination?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
                 the Domestic Nuclear Detection Office
    Question 1. What do you think can and should be done to improve 
connectivity between the Domestic Nuclear Detection Office and the 
Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Domestic Nuclear Detection Office track 
its interaction with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Domestic Nuclear Detection Office obtain 
intelligence from members of the intelligence community without going 
through I&A in the first place? If so, why?
    Answer. Response was not received at the time of publication.
    Question 4. How does I&A provide the intelligence community's 
``best judgment'' to the Domestic Nuclear Detection Office regarding 
the terrorist nuclear threat to the Nation?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
               the Office of Counternarcotics Enforcement
    Question 1. What do you think can and should be done to improve 
connectivity between the Office of Counternarcotics Enforcement and the 
Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Office of Counternarcotics Enforcement 
track its interaction with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Office of Counternarcotics Enforcement obtain 
intelligence from members of the intelligence community without going 
through I&A in the first place? If so, why?
    Answer. Response was not received at the time of publication.
    Question 4. Does CNE get its intelligence regarding links between 
terrorism and narcotics from I&A?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
            the Office of Cyber Security and Communications
    Question 1. What do you think can and should be done to improve 
connectivity between the Office of Cyber Security and Communications 
and the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Office of Cyber Security and 
Communications track its interaction with the Office of Intelligence 
and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does I&A provide intelligence to the Office of Cyber 
Security? If not, why not?
    Are I&A's cyber analysts co-located with other DHS cyber security 
analysts? How does their role differ from the work being done within 
the Office of Cyber Security?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
                      the Office of Health Affairs
    Question 1. What do you think can and should be done to improve 
connectivity between the Office of Health Affairs and the Office of 
Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Office of Health Affairs track its 
interaction with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Office of Health Affairs obtain intelligence 
from members of the intelligence community without going through I&A in 
the first place? If so, why?
    Answer. Response was not received at the time of publication.
    Question 4. How could I&A help the BioWatch program improve its 
risk-based judgments of where to emplace detectors throughout the 
country?
    Answer. Response was not received at the time of publication.
    Question 5. OHA is currently responsible for producing an 
intelligence-based biodefense architecture. Can you offer some examples 
of the kind of intelligence that I&A could provide OHA to help in such 
an endeavor?
    Answer. Response was not received at the time of publication.
    Question 6. OHA is currently responsible for producing an 
intelligence-based biodefense architecture. Can you offer some examples 
of the kind of intelligence you believe that I&A could provide OHA to 
help in such an endeavor?
    Answer. Response was not received at the time of publication.
    Question 7. What is the nature of the medical intelligence that I&A 
provides to OHA?
    Answer. Response was not received at the time of publication.
    Question 8. Do you think there are other types of intelligence that 
could be of value to the National Biosurveillance Integration Center, 
that I&A is in a position to provide?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
                          the Office of Policy
    Question 1. What do you think can and should be done to improve 
connectivity between the Office of Policy and the Office of 
Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Office of Policy track its interaction 
with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Office of Policy obtain intelligence from 
members of the intelligence community without going through I&A in the 
first place? If so, why?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
               the Office of Risk Management and Analysis
    Question 1. What do you think can and should be done to improve 
connectivity between the Office of Risk Management and Analysis and the 
Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Office of Risk Management and Analysis 
track its interaction with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Office of Risk Management and Analysis obtain 
intelligence from members of the intelligence community without going 
through I&A in the first place? If so, why?
    Answer. Response was not received at the time of publication.
    Question 4. How does I&A support risk assessments with timely 
intelligence in various areas of the Department?
    Answer. Response was not received at the time of publication.
    Question 5. What is the relationship between I&A and the Office of 
Risk Management and Analysis?
    Answer. Response was not received at the time of publication.
Questions From Chair Jane Harman and Ranking Member Michael McCaul for 
                 the Science and Technology Directorate
    Question 1. What do you think can and should be done to improve 
connectivity between the Science and Technology Directorate and the 
Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 2. How does the Science and Technology Directorate track 
its interaction with the Office of Intelligence and Analysis?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Science and Technology Directorate obtain 
intelligence from members of the intelligence community without going 
through I&A in the first place? If so, why?
    Answer. Response was not received at the time of publication.
    Question 4. What is the nature of I&A input into the terrorism risk 
assessments conducted by the S&T Directorate? Aside from chairing the 
intelligence community advisory group for these assessments, does I&A 
provide any other input?
    Answer. Response was not received at the time of publication.
    Question 5. What kind of relationship has S&T had with I&A in 
developing I&A's next generation of intelligence information systems, 
such as HSIN 2.0?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
